No.
a re pence ene nereecne
IN THE SUPREME COURT OF THE UNITED STATES

 

 

ARELENE HERNANDEZ,
Petitioner
V.
UNITED STATES OF AMERICA,
Respondent
PROOF OF SERVICE

State of Texas )
County of Midland )

DEPOSITOR, being first duly sworn, deposes and says under oath:

That on August 10, 2020, the Petition for Writ of Certiorari in the above-entitled case, was
deposited in a United States Post Office mail box located in Midland, Midland County, Texas,
with first class postage prepaid, properly addressed to the Clerk of the Supreme Court of the
United States and within the time allowed for filing said Petition for Writ of Certiorari;

That an additional copy of the Petition for Writ of Certiorari was served on Counsel for
Respondent:

Solicitor General of the United States, Department of Justice
950 Pennsylvania Ave., Northwest
Washington, D.C. 20530

Dated at Midland, Midland County, Texas, this 10" day of August, 2020.

Subscribed and Sworn to before me
this |Q_ day of August, 2020.

 
  

   
  

 

pny P

£ rh % aie gna Mandonado
@ ae Cornmission Expires

Ns ID No. 126275751

Public, in and for the State of Texas

  
  
 

 

Respectfully submitted,

Steve Hershberger, Attorney at Law
600 No. Marienfeld St., Ste. 1035
Midland, TX 79701

432-570-4014

Attorney for Petitioner
